Case No.:.
IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER/APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT/APPELLEE.
PROOF OF SERVICE

I, Juan Francisco Vega, do swear or declare that on 08/12/2020, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party's counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.

«■

The names and addresses of those served are as follows: Chad Poppell, Secretary of
Florida Department of Children and Families,
I declare under penalty of perjury that the foregoing is true and correct.
Executed on 08/12/2020.
(Signature)

Case No.:.
IN THE
SUPREME COURT OF THE UNITED STATES
JUAN FRANCISCO VEGA,
PETITIONER/APPELLANT,
V.
CHAD POPPELL,
SECRETARY OF FLORIDA DEPARTMENT OF CHILDREN AND FAMILIES,
RESPONDENT/APPELLEE.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1 (h), I hereby certify that the petition for a
writ of certiorari contains S.yjf

words, excluding the parts of the petition that

are exempted by Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on 08/12/2020
(Signature)

